                                                                                  IG-01-015




AUDIT
                       BILLINGS FOR DESKTOP COMPUTING AND
REPORT                 TELECOMMUNICATIONS OUTSOURCING AT
                        THE MARSHALL SPACE FLIGHT CENTER

                                                March 21, 2001




                                                    WARNING


                        This document is a final report of audit issued by the NASA Office of
                        Inspector General. Contractor information contained herein may be
                        company confidential. The restriction of 18 USC 1905 should be
                        considered before this data is released to the public. Any Freedom of
                        Information Act request for this report should be directed to the NASA
                        Inspector General for processing in accordance with Title 14 Code of
                        Federal Regulations, Part 1206.504.




                       OFFICE OF INSPECTOR GENERAL
National Aeronautics
and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write
to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CIO              Chief Information Officer
IT               Information Technology
ODIN             Outsourcing Desktop Initiative for NASA
TMR              Technical Management Representative
W                                                                              March 21, 2001


TO:              A/Administrator

FROM:            W/Inspector General

SUBJECT:         INFORMATION: Billings for Desktop Computing and Telecommunications
                 Outsourcing at Marshall Space Flight Center
                 Report Number IG-01-015


The NASA Office of Inspector General has completed an audit of Billings for Desktop
Computing and Telecommunications Outsourcing at Marshall Space Flight Center (Marshall).
We found that Marshall paid for duplicative services for desktop and telecommunications
services1 that the Outsourcing Desktop Initiative for NASA (ODIN) contractor and two other
contractors provided to Marshall. Duplication of services occurred because Marshall had not
established good management controls during the ODIN transition process. Specifically,
Marshall had not complied with the master ODIN contract and Agency requirements to
establish memorandums of agreement2 or procedures for developing desktop seat3 configuration
requirements and validating billings.

Recommendations

We recommended that Marshall require the ODIN contractor to establish memorandums of
agreement with applicable information technology (IT) service contractors. We also
recommended that Marshall reconcile ODIN contractor invoices to the ODIN scope of work,
and implement written procedures for validating billings for desktop computing and
telecommunications services. The establishment of memorandums of agreement will help
improve the efficiency of desktop and telecommunications services at Marshall.


1
  Desktop and telecommunications services include hardware, software, wide-area telecommunications
services, and network access.
2
  The ODIN contract requires that the memorandums of agreement describe the contractors' scope of work,
effective date, and technical support responsibilities. The Agency further requires that the agreements be
established with applicable ODIN contractors, other information technology service contractors, and
applicable Government project offices.
3
  Desktop seats include the following components: hardware and software acquisition, installation, and
maintenance; network access, relocation, system administration and refreshment; and customer support and
training. Seat refreshment involves replacing both standard software and hardware once during the delivery
order period.
                ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                                        FOR OFFICIAL USE ONLY
                                                                                           2

Also, implementation of improved billing procedures will help Marshall avoid duplicative
payments to contractors.

Management's Response and OIG Evaluation

Management concurred with the findings and recommendations. NASA agreed to review the
memorandums of agreement to determine whether they are properly developed and executed
and will establish additional memorandums of agreement, as needed, to ensure efficient
management of the ODIN contract. In addition, management is developing guidance to
improve its processes for validating billings.

The Agency's comments were responsive to both recommendations. Details on the status of the
recommendations are in the finding section of the report.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Billings for Desktop Computing and
Telecommunications Outsourcing at Marshall Space Flight Center




             ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                              FOR OFFICIAL USE ONLY
     BILLINGS FOR DESKTOP COMPUTING AND
TELECOMMUNICATIONS OUTSOURCING AT MARSHALL
             SPACE FLIGHT CENTER




    ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                     FOR OFFICIAL USE ONLY
        W                                                                       March 21, 2001


        TO:              M/Associate Administrator for Space Flight
                         DA01/Director, Marshall Space Flight Center


        FROM:            Assistant Inspector General for Auditing

        SUBJECT:         Final Report on Billings for Desktop Computing and Telecommunications
                         Outsourcing at the Marshall Space Flight Center
                         Assignment Number A0000801
                         Report Number IG-01-015


        The subject final report is provided for your information and use. Our evaluation of your
        response is incorporated into the body of the report. We combined draft recommendations 2
        and 3 into recommendation 2 as a result of additional information that management provided in
        response to the draft report. In addition to revising the recommendations, we modified
        appropriate sections of the report as necessary to be consistent with the recommendations. We
        also modified the estimated monetary benefits related to the recommendations. Management’s
        comments address the revised report. Please notify us when agreed-to action has been
        completed on these recommendations, including the extent of testing performed to ensure
        corrective actions are effective.

        If you have questions concerning the report, please contact Mr. David L. Gandrud, Program
        Director, Information Technology Audits, at (650) 604-2672, or Mr. Roger W. Flann, Program
        Manager, at (818) 354-9755. We appreciate the courtesies extended to the audit staff. The
        report distribution is in Appendix F.




(for)   Russell A. Rau

        Enclosure



                    ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                                     FOR OFFICIAL USE ONLY
                                                                  2
cc:
AO/Chief Information Officer
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
JM/Director, Management Assessment Division
Code 200.3/GSFC/Mark Hagerty, ODIN Program Manager




          ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                           FOR OFFICIAL USE ONLY
                           NASA Office of Inspector General
IG-01-015                                                                            March 21, 2001
 A0000801


          Billings for Desktop Computing and Telecommunications
               Outsourcing at the Marshall Space Flight Center

Introduction

NASA chartered ODIN in December 1996 to develop an outsourcing arrangement that
provides support for the majority of NASA’s desktop and intra-Center communication
systems. In 1998, NASA awarded a master ODIN contract4 to seven companies. The master
contract has a total estimated value of at least $4 billion over 9 years.5 As of September 2000,
NASA Headquarters and five installations6 including Marshall, had awarded their initial 3-year
delivery order contracts.

ODIN contractors will deliver comprehensive desktop computers, servers, and intra-Center
communication services to NASA and its contractors. ODIN contractors will provide the
services on a per-seat basis. Seats include the following components:

    •   hardware and software acquisition, installation, and maintenance;
    •   network access, relocation, system administration and refreshment;7 and
    •   customer support and training.

The overall audit objective was to determine whether NASA installations were effectively and
efficiently meeting employees’ desktop seat configuration requirements (see Appendix A for
other audit-related information).8 During the audit, we identified a condition at Marshall that
relates to ODIN billings for Government-owned desktop and telecommunications services. The
specific objective for this portion of the audit was to determine whether the ODIN contractor
accurately billed Marshall for Government-owned desktop and telecommunications services.
Summaries on prior audit report coverage relative to desktop outsourcing are in Appendix B.




4
  The ODIN master contract number is NAS5-98144.
5
  The contract’s period of performance is June 22, 1998, through June 21, 2007. The period of performance
for each delivery order shall not exceed 3 years; delivery orders may be renewed on a sole-source basis.
6
  The five installations are Goddard Space Flight Center, Johnson, Kennedy, Marshall, and Stennis.
7
  The ODIN contractor will replace both standard software and hardware of desktops once during the
delivery order period.
8
  We addressed the announced audit objectives in Report Number IG-00-060, “Configuration Controls in
Desktop Outsourcing,” dated September 29, 2000.

              ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                               FOR OFFICIAL USE ONLY
Results in Brief

The ODIN contractor billed Marshall for desktop and telecommunications services9 that two
other contractors also provided to Marshall. As a result, Marshall paid about $44,000 for
duplicative services during the period May 1999 through December 2000. Marshall may also
incur an estimated $4,000 after December 2000 through the end of the
3-year delivery order period if duplicative services continue. Payments could, therefore, total
about $48,00010 if duplicated services are not terminated (see Appendix C for payment
calculations).


Background

Prior to the ODIN contract, Marshall had received desktop and telecommunications services
from contractors including Intergraph Engineering Services and Silicon Graphics.11 From fiscal
year 1997 through August 2000, the two contractors provided services totaling about $14
million for Marshall’s IT systems. Intergraph Engineering Services provided maintenance of
hardware and software, sustaining engineering services, system administration, and operations
support for Marshall’s integrated engineering systems. Silicon Graphics provided maintenance
of hardware and system software for some of Marshall’s IT equipment.

In July 1997, Marshall initiated a preliminary inventory of desktop computer hardware to
support development of the ODIN Request for Proposal and performed additional inventories
leading up to the ODIN contract award in October 1998 and contract implementation beginning
in May 1999. Marshall intended, in part, that the ODIN contractor would use inventories to
identify the assets that Marshall would assign to the ODIN contractor.


Contractor Billings

Duplication of services occurred because Marshall had not established good management
controls during the ODIN transition process. Specifically, Marshall had not established formal
memorandums of agreement with the IT service contractors and had not developed written
procedures to define seat requirements and to validate and reconcile contractor invoices.

Key Management Controls

9
  Desktop and telecommunications services include hardware, software, wide-area telecommunications
services, and network access.
10
   We limited estimated savings in this report to duplicative billings. We did not include additional savings
that may be possible if Marshall reassesses its desktop computing and telecommunications requirements.
Marshall may also realize additional savings as a result of its ongoing validation of its baseline inventory.
11
   Intergraph Engineering Services and Silicon Graphics are subcontractors of Computer Sciences
Corporation. These two subcontractors will be referred to hereafter as contractors for reporting purposes.
                                                      2
               ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                                FOR OFFICIAL USE ONLY
Key management controls included master contract and Agency requirements. Each of the
requirements is discussed below.

Master Contract Requirements. NASA’s master ODIN contract (Section C.9) requires
that ODIN contractors establish appropriate transition agreements (hereafter referred to as
memorandums of agreement) with other Center contractors. The memorandums of agreement
should describe the contractors' scope of work (such as the number and type of seats to be
transferred), effective date, and technical support responsibilities.

Agency Requirements. NASA further defined the requirement for memorandums of
agreement in a Program Commitment Agreement, signed April 29, 1999, by the NASA
Administrator and the Chief Information Officer (CIO).12 The Program Commitment
Agreement requires the ODIN contractors to meet ODIN transition requirements by
establishing memorandums of agreement with each other, other IT service contractors, and
applicable Government project offices.

As part of the delivery order contract, the Contracting Officer’s Technical Representative
Delegation, NASA Form 1634, dated June 9, 1999, appointed the representative (hereafter
referred to as the technical management representative (TMR)) to monitor the ODIN contract
at Marshall. The NASA contracting officer delegated this responsibility pursuant to Federal
Acquisition Regulation, Part 42, “Contract Administration and Audit Services,” dated October
1, 1999, and NASA FAR Supplement Subpart 1842.270, “Contract Administration and Audit
Services,” dated August 31, 1997. The TMR serves as technical liaison between the ODIN
contractor and the contracting officer and is responsible for monitoring the contractor’s
performance and delivery of the final product and/or service under the contract, reviewing
contractor invoices, and recommending payment as appropriate.

NASA Procedures and Guidelines 4200.1E, “Equipment Management Manual,” dated July 2,
1999, requires that when a new property manager is assigned, the old and new property
managers will conduct a 100-percent inventory of the affected property. A new property
custodian inventory is required when an individual who replaces a property custodian inherits
property previously managed by the “old custodian.” This occurs when the incumbent property
custodian is relieved of his or her property accounts.


Transition to ODIN

When the ODIN contract was awarded, Marshall did not establish adequate management
controls in implementing the contract. Marshall management had not complied with the master
ODIN contract and Agency requirements to establish memorandums of agreement. In addition,

12
     This agreement sets forth the conditions for desktop outsourcing.
                                                       3
                 ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                                  FOR OFFICIAL USE ONLY
Marshall management had not established written procedures to develop seat requirements and
validate billings.

Silicon Graphics. Marshall did not establish a formal memorandum of agreement with Silicon
Graphics, one of the contractors that continued to provide IT maintenance services for
Marshall. Before Kennedy awarded the ODIN delivery order contract, Marshall had compiled
an inventory list of Marshall’s IT assets that did not appropriately distinguish between desktop
seats that would be covered by ODIN and those not covered by ODIN. Several months after
Kennedy awarded the ODIN delivery order, the Marshall property accountability manager was
still trying to determine which equipment items belonged under the ODIN contract.

The inventory list that Marshall transferred to the ODIN contractor included 35 desktop seats
for which Silicon Graphics continued to provide hardware and software maintenance services.
Because there was no formal memorandum of agreement specifying the scope of work and
related responsibilities, the ODIN contractor relied on the inventory list to determine the
universe of desktop seats it should maintain and bill to Marshall. Additionally, the ODIN
contractor performed only a sample testing of the Marshall-prepared inventory because the
ODIN contractor considered the required 100-percent inventory to be cost prohibitive and
labor intensive. Subsequently, the ODIN contractor billed Marshall for maintenance services
that Silicon Graphics also provided to Marshall. The duplicative billings totaled $7,322 for the
period May 1999 through December 2000. Because Marshall authorized both contractors to
provide services, Marshall may not be entitled to recover the duplicated payments from either
contractor. However, Marshall could reduce future costs by $4,027 if it eliminates the
duplicative hardware and software maintenance services for the 35 seats for the remaining 10
months of the contract.

Intergraph Engineering Services. Marshall had not established procedures to ensure that
users transferred their technical support from Intergraph Engineering Services to ODIN.
Although the ODIN contract became effective May 1, 1999, Intergraph Engineering Services
and the ODIN contractor did not establish a memorandum of agreement until October 1, 1999.
The memorandum stated that Intergraph Engineering Services would no longer provide
hardware maintenance for desktop seats that ODIN maintained. Before the memorandum
became effective, users of 83 seats had asked the ODIN contractor for desktop support
because they believed that they were entitled to the same seat services that ODIN provided to
most Center employees. As a result, Marshall paid two contractors (ODIN and Intergraph
Engineering Services) for the same service for these 83 seats during the 5-month period
between the effective date of the ODIN contact and the effective date of the memorandum of
agreement.

On October 1, 1999, Marshall modified the statement of work for Intergraph Engineering
Services to eliminate the hardware maintenance that ODIN also provided on its contract. Prior
to the modification, Marshall had transferred 83 seats from Intergraph Engineering Services to
ODIN, but did not remove them from the Intergraph Engineering Services contract. During the
                                                4
             ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                              FOR OFFICIAL USE ONLY
5-month period, May through September 1999, Marshall paid Intergraph Engineering Services
an estimated $36,281 for hardware maintenance services on the 83 seats and paid ODIN for
the same services. As with Silicon Graphics, Marshall may not be entitled to recover the
duplicated payments from Intergraph Engineering Services because Marshall authorized both
contractors to provide maintenance services.

Contractor Billings. The TMR is responsible for reviewing contractor invoices and
recommending payment as appropriate. During the transition to ODIN, Marshall had not
established written procedures for validating contractor invoices. Consequently, the TMR
approved the ODIN contractor invoice before reconciling invoice discrepancies. Marshall
could prevent future duplicate billings by establishing written procedures and requiring the TMR
and organizational chief information officers to use them in validating contractor billings and
Center seat requirements.


Recommendations, Management's Response, and Evaluation of
Response

The Marshall Center Director should:

    1. Require the ODIN contractor to establish memorandums of agreement with
       applicable IT service contractors, addressing contractor roles and
       responsibilities, scope of work, and the effective date of ODIN support, as
       applicable.

Management's Response. Concur. Management stated it had developed memorandums of
agreement with applicable IT service contractors but had not signed all of them nor provided all
of them to the auditors during audit field work. Marshall will review the memorandums of
agreement to determine whether they are properly executed, relevant, and properly maintained;
establish additional memorandums of agreement as needed; and continue to ensure that
applicable contractors follow the memorandums of agreement. Marshall stated that it expects to
complete corrective actions by June 30, 2001. The complete text of management's response is
in Appendix D. Marshall also provided general and specific comments on the report, which we
addressed in Appendix E.

Evaluation of Response. The actions taken by Marshall are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective actions are completed.

    2. Reconcile ODIN contractor invoices to the ODIN scope of work and
       implement written procedures for validating billings for desktop computing and
       telecommunications services.

                                               5
             ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                              FOR OFFICIAL USE ONLY
Management's Response. Concur. Management stated that its validation procedures are
generally effective but can be improved. Marshall is developing written procedures for
evaluating, identifying, and tracking seat assignments, and is improving process automation.
Management expects corrective actions to be completed by September 30, 2001 (see
Appendix D).

Evaluation of Response. The actions taken by management are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective actions are completed.




                                              6
             ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                              FOR OFFICIAL USE ONLY
                  Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit, which we addressed in a separate report,13 was to determine
whether NASA installations were efficiently and effectively meeting their employees' desktop
seat configuration requirements. This report discusses a condition that we identified at Marshall
relating to ODIN billings for Government-owned desktop and telecommunications services.
The objective for this portion of the audit was to determine whether the ODIN contractor
accurately billed Marshall for Government-owned desktop and telecommunications services.


Scope and Methodology

In performing the audit at Marshall, we did the following:

       •   To determine the policies and procedures concerning the transition to ODIN, we
           interviewed the NASA Headquarters Director of Logistics Management Office,
           Marshall CIO, organizational chief information officers, Program Manager for ODIN,
           contractor personnel, delivery order contracting officer, technical monitor
           representatives, and end users.

       •   To become familiar with applicable policies related to property management and
           accountability and contract administration, we reviewed NASA Procedures and
           Guidelines (NPG) 4200.1E, “Equipment Management Manual,” dated July 2, 1999;
           NASA Federal Acquisition Regulation Part 42, “Contract Administration and Audit
           Services,” dated October 1, 1999; NASA Federal Acquisition Regulation Supplement
           Subpart 1842.270, same title, dated August 31, 1997; Marshall Procedures and
           Guidelines (MPG) 4000.2, “Property Management,” dated September 7, 2000; and
           Marshall Management Instruction (MMI) 4000.1C, “Change of Property Manager
           Inventory,” dated December 2, 1991.

       •   To determine the scope of audit coverage, we reviewed the Center's property database
           of seats transferred to the ODIN contractor. At the time we performed the actual field
           work (March through September 2000), the cut-off date of the most current data
           available was February 2000.

       •   To determine the reliability of computer-processed data in the contractor’s database,
           we physically verified the existence of selected items.



13
     See footnote number 11.

                                                   7
Appendix A

   •   To determine whether controls were adequate, we evaluated the ODIN contractor’s
       controls relating to NASA-owned computer and communication assets.

   •   We interviewed and obtained available data from the Marshall CIO, the TMR, and the
       Deputy Director of the Information Services Department. In addition, we interviewed
       ODIN, Silicon Graphics, and Intergraph Engineering Services management to identify
       their practices for providing maintenance services to Marshall. We also advised the
       Marshall CIO, and ODIN, Silicon Graphics, and Intergraph Engineering Services
       management on the results of the audit.

   •   We calculated the cost impact of duplicative billings.


Management Controls Reviewed

We reviewed property management and accountability controls as described in NPG 4200.1E,
“Equipment Management Manual,” dated July 2, 1999; MPG 4000.2, “Property
Management,” dated September 7, 2000; and MMI 4000.1C, “Change of Property Manager
Inventory,” dated December 2, 1991. We also reviewed contract administration controls as
described in the NASA Federal Acquisition Regulation Part 42, “Contract Administration and
Audit Services,” dated October 1, 1999, and the NASA Federal Acquisition Regulation
Supplement Subpart 1842.270 (same title), dated August 31, 1997. Specifically, we reviewed
contract requirements in the ODIN contract and Program Commitment Agreement.

Management controls for property inventory and invoice validation were not adequate as
discussed in the finding.

Audit Field Work

We performed the audit field work from March through September 2000 at Marshall in
accordance with generally accepted government auditing standards.




                                                 8
                            Appendix B. Prior Audit Coverage

Prior Audit Coverage

The NASA Office of Inspector General has issued three reports relating to the Outsourcing
Desktop Initiative for NASA. (Copies of the reports are available at
www.hq.nasa.gov/office/org/hq/issuedaudits.html.)

“Configuration Controls in Desktop Outsourcing,” Report Number IG-00-060,
September 29, 2000

NASA chartered ODIN to provide support for the majority of NASA's desktop and intra-
Center communication services. In 1998, NASA awarded a master ODIN contract to seven
companies. Also in 1998, the Jet Propulsion Laboratory (JPL) awarded a 5-year $110 million
outsourcing contract to a non-ODIN contractor. We found that the desktop seat prices at JPL
significantly exceeded those paid by other NASA installations using the ODIN contract.
Because the JPL outsourcing contract was based on adequate price competition, we did not
question the basis of JPL’s desktop seat prices. However, if JPL uses the ODIN contract to
acquire desktop services after its current contract expires, NASA could avoid costs of as much
as $33 million over a 3-year period. We also found that NASA had not assessed the
effectiveness of two approaches14 the installations used in making desktop seat assignments or
issued procedures for determining seat selections. Accordingly, NASA lacks assurance that it
has assigned seats to employees in the most efficient and effective manner. We recommended
that NASA ensure that JPL include the ODIN contractors among competitors when awarding
the installation’s future desktop outsourcing contract. We also recommended that the ODIN
Program Manager assess the effectiveness of the two seat assignment approaches and issue
procedures to all installations for use in selecting an appropriate approach. Management
concurred with the report recommendations and will take corrective actions.

“Delivery Order Placement Under Outsourcing Desktop Initiative Contracts,” Report
Number IG-99-003, November 10, 1998

NASA can improve its readiness to place ODIN delivery orders by implementing an effective
program management process. Key documents such as the Program Commitment Agreement
and program plan and an overall risk management process have not been approved and put into
effect as required by NASA policy. Improved program


14
  The two approaches were the installation-wide approach and the installation-component approach. The
installation-wide approach means that each of the three installations (Johnson Space Center, Kennedy
Space Center, and Marshall Space Flight Center) had specified one or more desktop seats as the standard
seat for all installation employees. The installation-component approach means that the installation
delegated the seat assignment responsibility to lead officials (for example, directors, division chiefs, or
supervisors) in various organizational components.

                                                       9
Appendix B

management will help NASA to identify and benefit from lessons learned from outsourcing and
effectively manage ODIN delivery order placement. We recommended that the NASA CIO
submit an ODIN Program Commitment Agreement to the NASA Administrator for review and
approval. We also recommended that the ODIN Program Manager complete and execute a
program plan for ODIN. Additionally, we recommended that the ODIN Program Manager
establish a continuous risk management process that would identify risk and its effects, prioritize
risks for mitigation or elimination, and maintain a risk management plan. Management
concurred with the report recommendations and took responsive actions.

“Outsourcing of Desktop Computers,” Report Number IG-98-029, September 14,
1998

NASA had not ensured the adequacy or consistency of cost data to be used to place
outsourcing delivery orders. After completing the Business Case analysis, which supported
outsourcing, NASA updated the available cost data on outsourcing desktop computers, through
successive iterations, to support each phase of the competitive procurement process. NASA
used the updated data to assess the Agencywide benefits of outsourcing. However, NASA had
not issued guidance on preparing reliable cost estimates in support of delivery order placement.
Without consistently prepared and reliable estimates of the costs of the Government activities to
be outsourced, the Centers may be unable to make well-informed decisions on the type and
extent of outsourcing services they should acquire, particularly with regard to services other than
general-purpose computing (for example, intra-Center communications). Also, Centers may be
unable to reliably compare the costs of doing business with eligible vendors or to determine the
total savings actually achieved through outsourcing. We recommended that the NASA CIO
require Centers to develop Government cost estimates for use in determining the type and
extent of outsourcing services to be acquired. We also recommended that the CIO issue
detailed guidance for the Centers to use in developing their cost estimates. Management
concurred with the report recommendations and took responsive actions.




                                                  10
        Appendix C. Calculation of Potential Monetary Benefits

****"Proprietary Information Omitted"****




                                            11
            ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                             FOR OFFICIAL USE ONLY
     Appendix D. Management's Response




                         12
ADMINISTRATIVELY CONTROLLED INFORMATION – PROPRIETARY
                 FOR OFFICIAL USE ONLY
     Appendix D




             See Appendix E
             OIG Comment 1




             See Appendix E
             OIG Comment 2




13
Appendix D




                  See Appendix E
                  OIG Comment 3




             14
     Appendix D




15
        Appendix E. OIG Comments on Management’s Response

Marshall management provided the following general and specific comments in its response to
our draft report. Our responses to the comments are also presented.

Management’s Comment. Management stated that the OIG should establish a consistent
policy that would allow management to review, in writing, the OIG finding prior to the issuance
of a draft report. Such a policy would provide an avenue for meaningful discussions resulting in
a more timely resolution of differences.

1. OIG Comment. The draft report is the tool that provides management an opportunity to
respond, in writing, to our findings and recommendations. We considered management
comments before issuing the final audit report and made changes when necessary. Management
provided us with additional facts after we issued the draft report. In response to the additional
information, we made appropriate changes to this final report. In addition to providing the draft
report, we gave Marshall regular briefings on the results of the audit prior to issuing the draft
report. As always, we welcome management's informal comments during the audit phase to
ensure that the draft report will be factually accurate, objective, and useful.

Management’s Comment. Management stated that there was no transition of services from
Utilization Mission Services to ODIN or vice versa, and, therefore, the contractor continued to
operate under the existing contract.

2. OIG Comment. After we issued the draft report, Marshall provided additional information
regarding Utilization Mission Services. Accordingly, we omitted any reference to Utilization
Mission Services in the report.

Management’s Comment. Management disagreed with our comment that Marshall had not
validated contractor billings as required. Marshall referenced several procedures that it had
established to validate billings.

3. OIG Comment. We agree that Marshall has improved its validation procedures for
contractor billings. We changed the comment in the final report to “Marshall had not
established good management controls during the ODIN transition process."




                                               16
                      Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight

NASA Centers

Director, Marshall Space Flight Center
Code 200.3/GSFC/Mark Hagerty, ODIN Program Manager




                                         17
                 NASA Assistant Inspector General for Auditing
                                Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Billings for Desktop Computing and Telecommunications Outsourcing at
              Marshall Space Flight Center

Report Number:                                   Report Date:


Circle the appropriate rating for the following statements.

                                                Strongl                              Strongl
                  Statement                        y      Agree   Neutra   Disagre      y      N/A
                                                 Agree              l         e      Disagre
                                                                                        e
1. The report was clear, readable, and             5       4        3         2         1      N/A

   logically organized.
2. The report was concise and to the point.        5       4        3         2         1      N/A

3. We effectively communicated the audit           5       4        3         2         1      N/A

   objectives, scope, and methodology.
4. The report contained sufficient                 5       4        3         2         1      N/A

   information to support the finding(s) in a
   balanced and objective manner.

Overall, how would you rate the report?

     Excellent           Fair           Very Good                 Good               Poor

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                        Media
       NASA Employee                              Public Interest
       Private Citizen                            Other:
       Government:               Federal:             State:        Local:


May we contact you about your comments?

Yes: ______                                     No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
David L. Gandrud, Program Director, Information Technology Program Audits

Roger W. Flann, Program Manager

Rhodora Posey, Auditor-in-Charge

Carl L. Aley, Auditor

Nancy C. Cipolla, Report Process Manager

Betty G. Weber, Operations Research Manager

Barbara J. Smith, Program Assistant
